                                      Reference
                              OIG Document Control # 96-19




    REINVENTION PROPOSALS
           PHASE IV

         September 27, 1996




OFFICE OF INSPECTOR GENERAL
RAILROAD RETIREMENT BOARD
The Office of Inspector General (DIG)has issued reinvention proposals
that recommended changes to the organizational structure and
organizational culture of the Railroad Retirement Board (RRB). More
recently, the DIG has also proposed a realignment of program
responsibilities between the RRB and the Social Security Administration
(SSA). Each of the recommendations submitted to the Board will enable
t~e agency to focus its resources on meeting the needs of all of its
customers.

Arthur Andersen LLP identified the internal control environment of the
RRB as a material control weakness at the conclusion of its financial
statement audits for three fiscal years. It was specifically noted in the
most recent report that the three-member Board structure may preclude
the efficient operation of the RRB. The inability of the Board Members to
focus on major issues will hamper the development and implementation
of a realistic strategic plan as required by the Government Performance
and Results Act of 1993 (GPRA)and preclude them from effectively
pursuing the most efficient manner of reinventing the agency for the
future.

Based on continued analy~is and the report of the external auditors, the
DIG is recommending that the Board request a change in its status from
an independent agency to a government corporation under the direction
of an independent Commissioner who will function as the Chief
Executive Officer (CEO). The new status will enable the agency to most
efficiently address its short term operational needs and concentrate its
long term strategy and efforts on those programs that are unique to the .
railroad industry. Streamlining the senior management structure is also
consistent with downsizing initiatives which have begun within the
agency and the DIG proposal to transfer the RRB's Tier I responsibility to
the SSA.'                                   .
 As originally created by legislation in the 1930s, the Board structure of
 the RRB consists of three individuals who are responsible for
 representing railroad management, railroad labor organizations and the
 public interest. Rather than acting as a strategic and policy setting
 function as most Boards of DireCtors, the RRB's Board operates more like
 a management committee and is involved in the daily administration of
 RRB program activities. The focus of the RRB's leadership should be
 strategic in nature and oriented toward the long term.

The concept of a CEO was recommended by the Commission on Railroad
Retirement in its report issued in 1972 although the term used in the
report was for the appointment of a ·strong chairman" to function in that
capacity. Similarly, the concept of a private corporation was considered
in the 1983 budget proposal of President Reagan. These proposals were
consistent with the recommendations made by the President's Private
Sector Survey On Cost Control issued in 1983 and generally referred to
as the Grace Commission.                                                 .

The continued involvement of any Board Member in the routine
administrative processes represents an additional administrative burden
on the senior managers of the RRB. The different perspective of each
Member also increases the potential for conflict in the resolution of
routine matters. As noted, this situation represents a material weakness
in the internal control environment of the agency and the lack of a single
CEO was cited by the external auditors as an impediment to resolving
significant issues on a timely basis.




The OIG believes that the RRB should become a government corporation
effective with the start of the 1998 fiscal year. The OIG has previously
recommended the transfer of certain program responsibilities to SSA which
is' compatible with this proposal. The government corporation represents a
structure that will enable the RRB to enter into a transitional period. The
agency could identify and begin to separate its inherently governmental
responsibilities from those which are typically private sector functions and
are applicable only to the railroad industIy.
Within the government corporation structure, the focus of the RRB could
ultimately shift from that of an independent governmental agency to an
organization that will depend on its competitive advantage to remain in
business. Program coordination problems could be minimized and the
duplication of administrative processes eliminated. Efficiencies to be gained
would benefit program beneficiaries through faster service and lower cost.
As noted earlier, the RRBshould be able to complete the transfer of its Tier I
responsibilities within three years.

The suggested timeframe would allow the agency, its customers and
Congress to best address all of the nuances of the programs and to provide
a greater degree of accuracy in measuring the financial impact of
demographic changes in the industIy. The establishment of a government
corporation is an administrative consideration that provides a framework
within which roles can be defined while maintaining stated customer service
goals. Both the collective bargaining process with respect to benefit changes
and the legislative process providing for the structure of the benefit
programs would remain unchanged.

As an independent government corporation with reduced operations, the
RRB would realize administrative efficiencies in the budgetaIy process.
Although financial reporting under the Government Corporation Control Act
(GCCA)would be necessaIY, many of the requirements are similar to those
of GPRA.

Standards for becoming a government corporation, drafted by the Office of
Management and Budget, suggested that an entity be placed under the
head of an existing department or agency and be responsive to policy
instruction from the President and/or the agency head. Coordination and
oversight would not include day-to-day operational control and direction.
The standards specifically stated that: 'While there should be no provision
for a governing Board of Directors, it may be useful to have an advisOIY
board if input from business advisors in business operations is desired."
In the case of the RRB, it is recommended that the agency become a
government corporation headed by an independent CEO. It is not
recommended that the RRB report to the head of an existing agency
because its responsibilities resemble a private sector service provider for
several of the programs it administers. The CEO would be responsible for
the design and implementation of the RRB's strategic plan as well as
complete responsibility and authority for its operations.

The internal structure of the RRB would be organized according to
functional expertise as described in the OIG'soriginal reinvention proposal.
The CEO and senior managers would be compensated in accordance with
their achieving established financial and performance goals similar to the
type of compensation targets established in private sector businesses.

The present Board structure should be abolished and replaced by an
advisory panel that would continue to represent the public interest, railway
labor and railroad management. The advisory panel would meet periodically
to represent its constituency and submit long term strategic
recommendations to the RRB.




                                     ADVISORY
                                       PAlIEL



            DfSPBCTOR
                                         I
                                       CRIEF
             GUERAL                  EXECl1TIVB
                                      OFFICER

      I                 I
                                         I
                                         I                  I                  I

OFFICE OF          mAl'CIAL         DfFORJlATIOB          LEGAL        ADMDUSTRATIVE
PROGRAMS          OPERATIOBS          SYSTEMS            AFFAIRS          SERVICES
Abolishing the existing Board would eliminate the potential for conflict
between the viewpoints of individual Board members and senior managers
while retaining appropriate representation through the advisory panel. The
public member of the panel would not be a chairman in the historical sense
of the RRB but would facilitate the logistics of arranging meetings and
presenting the panel's recommendations. The panel should require minimal
funding since it would not be involved in the daily administration of the
corporation.

Establishing an advisory panel would result in initial savings to the
corporation since minimal staff would be allocated to the panel. The appeals
function, coverage decisions and waiver determinations which currently
require Board action could be modified or assigned to other executives
within the RRB. Most of the decisions rendered by the Board involve a
review of specific circumstances or issues of law and regulations. It would
seem reasonable that the Office of General Counsel could assume these
responsibilities. Eliminating the routine operating responsibilities of the
Board represents an aspect of the proposal which requires enabling
legislation but streamlines the overall operations.




The current operating environment requires that Federal agencies like the
RRB scrutinize all aspects of their operations and consider major structural
"changes. The OIG believes this proposal is consistent with Administration
directives to provide better service at lower cost. By narrowing the scope of
its activities and adjusting its structure to match its revised program
responsibilities, the RRB will be able to provide the best possible service to
program participants, the railroad industry and the public.
This document was scanned for electronic
      distribution on April 20, 2009.

     Inquiries should be directed to:

       Office of Inspector General
     U.S. Railroad Retirement Board
            844 N. Rush Street
          Chicago, Illinois 60611

        Telephone: 312-751-4690
